No. 20-457
In the

Supreme Court of the United States
__________________

MARKETGRAPHICS RESEARCH GROUP, INC.,
Petitioner,
v.
DAVID PETER BERGE,
Respondent.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit

__________________
BRIEF OF AMICUS CURIAE OF COMMERCIAL
LAW LEAGUE OF AMERICA IN SUPPORT OF
PETITIONER
__________________
JAMES W. HAYS
JONATHAN KRAMER
Counsel of Record
WHITFIELD & EDDY, PLC
HAYS POTTER & MARTIN, LLP
699 Walnut Street,
3945 Holcomb Bridge Road
Suite 2000
Suite 300
Des Moines, IA 50309
Telephone: (515) 288-6041 Peachtree Corners, GA 30092
Facsimile: (515) 246-1474 Telephone: (770) 934-8858
Facsimile: (770) 934-8932
beau@hpmlawatl.com
Counsel for Amicus Curiae
Commercial Law League of
America
November 9, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
IDENTITY AND INTEREST OF AMICUS
CURIAE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT. . . . . . . . . 3
I.

Circuits are split on how to implement 11
USC §523(a)(6). . . . . . . . . . . . . . . . . . . . . . . . . 3

II.

The circuit split results in unnecessary
additional litigation to establish a creditors’
right to recover or a debtor’s right to
discharge . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

III.

A clear definition of willful and malicious
injury and the burden of proof required will
assist creditors across a wide spectrum of
legal actions . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
A. PERSONAL INJURY. . . . . . . . . . . . . . . . . 7
B. INVENTORY FINANCE . . . . . . . . . . . . . . 8
C. UNFAIR COMPETITION . . . . . . . . . . . . . 9
D. PONZI SCHEMES . . . . . . . . . . . . . . . . . . . 9

IV.

A clear definition of willful and malicious
injury is needed to provide guidance on the
application of collateral estoppel . . . . . . . . . 10

V.

The circuit split creates different results
depending on where the bankruptcy case is
filed. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ii
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

iii
TABLE OF AUTHORITIES
Cases
Bullock v. BankChampaign, N.A.,
569 U.S. 267, 133 S.Ct. 1754,
185 L.Ed.2d 922 (2013) . . . . . . . . . . . . . . . . . . . . . 3
Ford Motor Credit Co. v. Owens,
807 F.2d 1556 (11th Cir. 1987). . . . . . . . . . . . . . . 8
In re Bernard L. Madoff Investment Securities, LLC,
515 B.R. 117 (S.D.N.Y. Bankr. 2014). . . . . . . 9, 10
In re Delaney,
97 F.3d 800 (5th Cir. 1996). . . . . . . . . . . . . . . . . 12
In re Jercich,
238 F.3d 1202 (9th Cir. 2001). . . . . . . . . . . . . . . . 4
In re Miller,
156 F.3d 598 (5th Cir. 1998). . . . . . . . . . . . 4, 6, 12
In re Morrison,
110 B.R. 578 (M.D. Fla. Bankr. 1990) . . . . . . . . . 8
In re Phillips,
882 F.2d 302 (8th Cir. 1989). . . . . . . . . . . . . . . 8, 9
In re Su,
290 F.3d 1140 (6th Cir. 2002). . . . . . . . . . . . . . . . 4
In re Vollbracht,
276 Fed. Appx. 360 (5th Cir. 2007) . . . . . . . . . . . 6
In re Williams,
337 F.3d 504 (5th Cir. 2003). . . . . . . . . . . . . . . . . 4

iv
Kawaauhau v. Geiger,
523 U.S. 57, 118 S.Ct. 974,
140 L.Ed.2d 90 (1998) . . . . . . . . . . . . . . . . . . . . . . 3
Kawaauhu v. Geiger,
523 U.S. 57 (1998). . . . . . . . . . . . . . . . . . . . . 2, 3, 7
Marrama v. Citizens Bank of Massachusetts,
549 U.S. 365, 127 S.Ct. 1105,
166 L.Ed.2d 956 (2007) . . . . . . . . . . . . . . . . . . . . . 3
Roussel v. Clear Sky Properties, LLC; LuAnn Deere,
829 F.3d 1043 (8th Cir. 2016). . . . . . . . . . . . . . . 12
United States v. Harris,
774 Fed. Appx. 937 (6th Cir. 2019) . . . . . . . . . . . 8
Statutes
11 U.S.C. §523(a)(6) . . . . . . . . . . . . . . . . . . . . . passim

1
IDENTITY AND INTEREST OF AMICUS
CURIAE
Pursuant to Supreme Court Rule 37, the
Commercial Law League of America (“CLLA”)
respectfully submits this brief amicus curiae in support
of Petitioner MarketGraphics Research Group, Inc.1
Founded in 1895, the CLLA is the nation’s oldest
organization of attorneys, collection agencies, judges,
accountants, trustees, turnaround managers and other
credit and finance experts working in the commercial
law, bankruptcy and insolvency fields. CLLA is a
leader in providing legal and educational services to
the business and credit communities. CLLA members
are experienced professionals who regularly provide
counsel about issues regarding the impact of
bankruptcy filings on the credit community and
individual clients. CLLA is a trusted voice in the credit
community and maintains a reputation as being an
honest broker on behalf of both creditors and debtors in
navigating the commercial business environment.
CLLA submits that this professional experience on the
subject of the Petition will provide a useful additional

1

Pursuant to this Court’s Rule 37.2, all parties with counsel listed
on the docket have consented to the filing of this brief. Counsel of
record for all listed parties received notice at least 10 days prior to
the due date of the Amicus Curiae’s intention to file this brief.
Pursuant to Rule 37.6, Amicus Curiae affirms that no counsel
for any party authored this brief in whole or in part, and no
counsel or party made a monetary contribution intended to fund
the preparation or submission of this brief. No person other than
Amicus Curiae, its members, or its counsel made a monetary
contribution to its preparation or submission.

2
viewpoint to assist the Court in its consideration of this
case.
SUMMARY OF ARGUMENT
11 U.S.C. §523(a)(6) excepts from discharge in
bankruptcy “any debt … for willful and malicious
injury by the debtor to another entity or to the property
of another entity.” In Kawaauhu v. Geiger, 523 U.S.
57, (1998), this Court held that the “willful and
malicious injury” exception applies only to “acts done
with the actual intent to cause injury.” Id. at 61. There
is now a split in eleven Circuit Courts of Appeal in
applying this holding to subsequent cases, resulting in
a lack of uniformity in the application of law, with the
result that the outcome of such cases can depend
entirely upon the circuit in which the underlying
bankruptcy case was filed.
Both debtors and creditors are left in substantial
doubt regarding whether conduct alleged – or,
commonly, found to support a damages verdict at a
trial in state or federal court – constitutes a willful and
malicious injury. Amicus urges the Court to grant
certiorari in this case in order to address the deep and
substantial split in the circuits and provide muchneeded uniformity in applying the Bankruptcy Code.

3
REASONS FOR GRANTING THE WRIT
I.

Circuits are split on how to implement 11
USC §523(a)(6)

The Bankruptcy Code is intended to provide “a fresh
start to the honest but unfortunate debtor.” Marrama
v. Citizens Bank of Massachusetts, 549 U.S. 365, 367,
127 S.Ct. 1105, 166 L.Ed.2d 956 (2007). The Code
recognizes that not all debtors are or should be entitled
to a fresh start from all debts.
Bullock v.
BankChampaign, N.A. , 569 U.S. 267, 275-76, 133 S.Ct.
1754 1760, 185 L.Ed.2d 922 (2013) (discussing a variety
of exceptions from discharge and the policy reasons
behind them). Debts arising from intentional wrongful
acts of a debtor are among those which Congress
expressly excepted from that fresh start. “A discharge
under … this title does not discharge an individual
debtor from any debt – for willful and malicious injury
by the debtor to another entity or to the property of
another entity.” 11 USC § 523(a)(6). In its last
examination of the statutory exception from discharge
for debts arising from “willful and malicious injury,”
this Court determined that “nondischargeability takes
a deliberate or intentional injury, not merely a
deliberate or intentional act that leads to injury.”
Kawaauhau v. Geiger, 523 U.S. 57, 61, 118 S.Ct. 974,
140 L.Ed.2d 90 (1998).
This Court in Geiger,
addressing whether a damage award arising from
professional malpractice could be excepted from the
discharge, ultimately held that “debts arising from
recklessly or negligently inflicted injuries do not fall
within the compass of §523(a)(6).” Geiger, 523 U.S. at
64. Circuit courts continue to interpret the meaning of

4
“willful and malicious injury” differently from each
other, resulting in the “deep circuit split” that
Petitioner asks the Court to address.
The split in the circuits creates uncertainty and
inconsistency in two ways. The first inconsistency is a
disagreement as to exactly what elements a creditor
must prove to successfully demonstrate that a debtor
caused a “willful and malicious injury.” Petitioner
characterizes this split as whether there is a unitary
standard or a two-pronged standard, but a review of
the cases also demonstrates inconsistency as to how
exactly to apply either test. Cf. In re Miller, 156 F.3d
598, 603-606 (5th Cir. 1998); In re Williams, 337 F.3d
504, 509 (5th Cir. 2003) with In re Jercich, 238 F.3d
1202, 1208-09 (9th Cir. 2001) and In re Su, 290 F.3d
1140, 1145-47 (6th Cir. 2002) (disagreement as to
elements and standard for malice). The second
inconsistency is whether a “willful and malicious
injury” can be proven using the objective likelihood of
harm or if subjective awareness of that harm is needed.
Compare In re Miller, 156 F.3d 598, 603-606 (5th Cir.
1998) with In re Jercich, 238 F.3d 1202, 1208-09 (9th
Cir. 2001) and In re Su, 290 F.3d 1140, 1145-47 (6th
Cir. 2002) (disagreement as to objective v. subjective
standards for proving “substantial certainty of harm).
The circuit split and the inconsistency in the
application of the law is clear. This Court should take
up this case in order to resolve these disparate
approaches.

5
II.

The circuit split results in unnecessary
additional litigation to establish a
creditors’ right to recover or a debtor’s
right to discharge.

Petitioner fully outlines the nature of the split;
Amicus writes to emphasize the need for this Court to
address the circuit split. Clarity regarding both the
legal standard to be applied and the evidence required
to meet the standard(s) is necessary to prevent
litigants from unnecessarily expending significant
resources. In the typical §523(a)(6) case, as in this
case, the parties litigate the debtor’s conduct in civil
court for a number of years. If the essential elements
of the tort claim or statutory violation are proven, the
result is a damage award in favor of the creditor. The
debtor then files bankruptcy and the creditor initiates
an adversary proceeding to have the judgment award
held nondischargeable. The creditor argues that under
the doctrine of collateral estoppel, the trial court
judgment establishes a willful and malicious injury, or
at least some of the elements thereof. However, the
essential elements of the tort claim or statutory
violation proven at trial may or may not be congruent
with the particular circuit’s analysis of what
constitutes “willful and malicious injury” under
§523(a)(6). As a result, in some circuits, some or all of
the trial court’s findings are not given preclusive effect
and the claims must be re-litigated in the bankruptcy
court, whereas in other circuits that preclusive effect is
established.
In the Berge case before the Court, the original trial
court decision specifically ruled that the Active

6
Defendants infringement was willful. [Petition
Appendix G, p. 10, par. X]. Initially, the bankruptcy
court held that “[t]he debtor having conceded all other
elements of 11 U.S.C. §523(a)(6), the only issue at trial
was whether the debtor acted with malice.” [Petition
Appendix D, p. 3] On remand from the District Court,
the bankruptcy court found, and the Sixth Circuit
agreed, that “two of the key claims at issue … each
defined ‘willful’ more broadly than did §523(a)(6).”
Berge, 953 F.3d at 913. By affirming the dismissal of
the action, the Sixth Circuit did not provide Petitioner
with an opportunity to prove that Respondent’s conduct
was willful as the term is now defined by the Sixth
Circuit. In effect, Petitioner is penalized for its failure
to prove something in the original trial which was not
at issue there.
The different approaches as to intent among the
circuits is central to the circuit split that should be
resolved.
For example, the subjective intent
requirement adopted by the Sixth Circuit (along with
the First, Eighth, Ninth and Tenth) will almost always
result in additional litigation and creates a much
higher burden of proof for the creditor. Extremely rare
are the cases where the debtor has admitted having a
subjective intent to injure (similar to the very few cases
where a debtor admits to fraud). “Because debtors
generally deny that they had a subjective motive to
cause harm, most cases that hold debts to be nondischargeable do so by determining whether “[the
debtor’s] actions were at least substantially certain to
result in injury.” In re Vollbracht, 276 Fed. Appx. 360,
362 (5th Cir. 2007) (citing In re Miller, 156 F.3d 598,
606 (5th Cir. 1998)). But in those circuits where

7
subjective intent is required, the trial court’s
determination of willfulness or malice often will not be
considered conclusive in the trial court or preclusive in
an ensuing §523(a)(6) bankruptcy proceeding.
While Petitioner here may benefit from having
another opportunity to present evidence, the need for
such additional litigation arises from the absence of
clear standards for “willful and malicious injury.”
There is uncertainty for the parties to an adversary
proceeding in the bankruptcy court as to both the
elements and analysis required for proving the action
and whether the creditor must prove, and overcome the
testimony of the debtor denying, the subjective intent
of the debtor to cause harm. The filing creditor has
already been victimized by the debtor and suffered
substantial harm. The need to re-litigate these issues
in the bankruptcy court imposes substantial additional
cost on parties, and should be addressed by this Court.
III.

A clear definition of willful and malicious
injury and the burden of proof required
will assist creditors across a wide spectrum
of legal actions.
A. PERSONAL INJURY

While Geiger established that reckless actions alone
are not sufficient to except the damages arising from
them, personal injury-related torts are a category of
claims that practitioners must be able to properly
analyze when advising someone about bankruptcy as a
viable option or when advising someone as to whether
a debt is exempt from discharge. Take the example of
a club goer that finds pills in a parent’s cabinet and

8
decides to hand them out to patrons at a night club. Or
a street drug seller lacing heroin with fentanyl without
notifying the recipient. In both scenarios the person
involved is not only committing a crime, but is also
committing a tort whereby people are likely to be
harmed. See e.g. United States v. Harris, 774 Fed.
Appx. 937, 941 (6th Cir. 2019) (quoting the Sentencing
Commission’s finding that “Because of fentanyl’s
extreme potency, the risk of overdose death is great,
particularly when the user is inexperienced or unaware
of what substance he or she is using”). In both
scenarios, while the actor may not subjectively intend
to cause a specific injury, the objective risk is
substantial and justification non-existent.
B. INVENTORY FINANCE
The tort of conversion regularly occurs in the
context of inventory financing. In the typical “floor
plan” financing agreement, the proceeds from the sale
of inventory are to be held in trust when received and
then paid to the creditor. If a debtor misapplies those
proceeds, the inventory is said to be sold “out of trust”
and such action is considered a conversion of the
secured creditor’s property. See e.g. Ford Motor Credit
Co. v. Owens, 807 F.2d 1556, 1559-60 (11th Cir. 1987)
(upholding district court finding that sale out of trust
was willful and malicious injury caused by both
dealership entity and entity president). Although the
Eleventh Circuit excepted the debt from discharge in
the foregoing case, the same issue has been the subject
of “extensive litigation” and other circuits disagree with
the Eleventh Circuit. See In re Morrison, 110 B.R. 578,
582 (M.D. Fla. Bankr. 1990). See also In re Phillips,

9
882 F.2d 302, 305 (8th Cir. 1989) (holding that debtor
may not be liable under 11 USC § 523(a)(6) if inventory
was sold out of trust if debtor subjectively thought the
money would eventually be paid back).
C. UNFAIR COMPETITION
As in the case at bar, business torts are also
commonplace. Employers often provide employees with
contacts and business introductions needed to develop
relationships with customers for the benefit of the
employer, but always at the risk that an employee will
usurp that relationship for his own benefit. The
employee often does not have the capital available to
pay a judgment entered against him for the business
tort, and bankruptcy frequently follows. The employee,
as here, might claim that the intent was not to hurt the
employer’s business so much as to start his or her own.
The harm to the existing business nonetheless may be
catastrophic and any reasonable person should know
that such harm is the likely result.
D. PONZI SCHEMES
The primary motivation of a Ponzi scheme is
wealth-generation; the objective result is substantial
financial harm to investors. Bernie Madoff, after being
in prison, told Harvard Professor Eugene Soltes “I, sort
of, you know, I sort of rationalized that what I was
doing was OK, that it wasn’t going to hurt anybody.”
https://hbswk.hbs.edu /item/bernie-madoff-explainshimself. In a circuit which requires proof of the
subjective intent to injure, it is not clear that Madoff’s
statement would be sufficient, even though he plead
guilty to fraud.
See In re Bernard L. Madoff

10
Investment Securities, LLC, 515 B.R. 117, 125
(S.D.N.Y. Bankr. 2014). Another statement by Mr.
Madoff - “I knew what I was doing [was] wrong, indeed
criminal”- may not be sufficient to conclusively
demonstrate malice as interpreted by some of the
circuits. Id.
IV.

A clear definition of willful and malicious
injury is needed to provide guidance on the
application of collateral estoppel.

By defining “willful and malicious injury” to require
the subjective intent to injure on the part of the debtor,
the Sixth Circuit rejected the conclusive effect of the
District Court’s finding that the debtor had acted
“willfully” infringing Petitioner’s copyrights. The Sixth
Circuit specifically held that the Copyright Act “defined
‘willful’ more broadly than did §523(a)(6).” Berge, 953
F.3d at 913. As §523(a)(6) contains no definition of
willfulness, the Sixth Circuit is necessarily creating
one and then using it to disregard a trial court finding.
Where the bankruptcy court is the initial trier of fact
on this issue, it would be appropriate for the
bankruptcy court to make a determination of
willfulness, but where another court has determined
that the injury satisfied the element of “willfulness” as
found in the applicable state or federal law, then that
determination should be given preclusive effect.
Petitioner describes the need for clarity “so that
[Plaintiffs] can draft judgments and propose judicial
findings sufficient to trigger the exception if the
defendant later files for bankruptcy.” [Petition, p. 30]
In the current state of jurisprudence, it is not clear

11
what findings would be sufficient to trigger the
exception.
Moreover, the Berge decision appears to contain an
exception to its own rule requiring evidence of
subjective intent, which will create additional
uncertainty regarding trial court decisions. “Put
differently, the debtor must desire to cause
consequences of his act or believe that the
consequences are substantially certain to result from it.
A debtor need not actually admit his intent; intent may
be inferred from the circumstances of the injury.”
Berge, 953 F.3d at 915 (internal quotes omitted;
emphasis added).
The first sentence is a clear
statement of the subjective intent requirement. The
second, though, suggests that where the injury is
sufficiently egregious, the subjective intent
requirement may be set aside, creating an exception
which can consume the rule. The evidence at trial
showed that 75% of Petitioner’s customers were lured
away by the “willful or knowing” misappropriation of
customers and copyrights. Berge, 953 F.3d at 911. Had
the trial court known that the “circumstances of the
injury” could be a factor in whether its damage award
could be non-dischargeable, it might have emphasized
the resulting destruction of the creditor’s business as
additional support for finding that the acts were
intentional.
V.

The circuit split creates different results
depending on where the bankruptcy case is
filed.

Where the debtor files her bankruptcy case
presently determines how the “willful and malicious

12
injury” exception will be applied. Petitioner challenges
the determination by the Sixth Circuit that willful and
malicious are two separate elements to be proven and
that the requisite showing for a finding of willfulness
is the subjective intent of the debtor to cause injury.
Respondent Berge’s co-Defendant, Donald Berge, filed
bankruptcy in Mississippi prior to the District Court
decision (N.D. MS Case No. 13-13248-JDW)[Petition
Appendix G, p. 8]. As noted above, the Fifth Circuit
applies a very different standard for determining
“willful and malicious injury” and in that circuit the
findings by the District Court would be viewed through
the lens of whether “‘the debtor intentionally took
action that necessarily caused, or was substantially
certain to cause, the injury.” In re Miller, 156 F.3d 598,
604 (5th Cir. 1998) (quoting In re Delaney, 97 F.3d 800
(5th Cir. 1996)).
Just across the Mississippi River from Memphis is
Arkansas, which lies in the Eighth Circuit. In a 2016
opinion, the Eighth Circuit reviewed a case on very
similar facts – creation of a competing business in
violation of contractual and common law duties,
resulting in a damage award – and found that the trial
court’s decision was collateral estoppel on both
willfulness and maliciousness (the Eighth Circuit
having also adopted the position that §523 (a)(6)
required both willful and malicious as elements).
Roussel v. Clear Sky Properties, LLC; LuAnn Deere, 829
F.3d 1043 (8th Cir. 2016). As parts of both Mississippi
and Arkansas are within the geographical area of
Greater Memphis, such that three people sharing office
space can be residents of three different Circuits, the
potential exists for three different interpretations of

13
the same facts, depending upon the residence of each of
the debtors. Federal law must be uniformly applied in
federal courts. Amicus urges the Court to grant
certiorari in this case to establish that uniformity in
application of the Bankruptcy Code.
Petitioner contends that the Sixth Circuit erred in
answering each of the Questions Presented.
Particularly as a result of courts utilizing multiple
interpretations of willfulness (as highlighted in the
Petition at pages 15-20) and malice (see Petition at
pages 36-37), creditors would find more equitable
recourse for the harms they have suffered, and would
be best served by uniformity in application of the law.
Accordingly, Amicus contends that certiorari is
warranted to resolve the questions and that a clear
ruling on these issues will substantially benefit debtors
and creditors nationwide. Statutory language, to be
effective, needs to provide bright lines wherever
possible.
This Petition for Certiorari provides the Court with
a proper vehicle to bring statutory clarity in this
critically important bankruptcy matter, where up to
this point the circuits have reached several different
answers.
The case before the Court urged by
Petitioners is sufficient, factually and legally, for the
Court to hear the concerns involved relating to the
circuit split and to resolve such issues for the benefit of
the nation and the court system.
Amicus has
confidence in this Court’s ability to define terms which
have been in the legal lexicon for centuries brightly
enough to serve.

14
CONCLUSION
For the reasons stated above, the Petition for Writ
of Certiorari should be granted.
Respectfully submitted,
JONATHAN KRAMER
WHITFIELD & EDDY, PLC
699 Walnut Street,
Suite 2000
Des Moines, IA 50309
Telephone: (515) 288-6041
Facsimile: (515) 246-1474

JAMES W. HAYS
Counsel of Record
HAYS POTTER & MARTIN, LLP
3945 Holcomb Bridge Road
Suite 300
Peachtree Corners, GA 30092
Telephone: (770) 934-8858
Facsimile: (770) 934-8932
beau@hpmlawatl.com
Counsel for Amicus Curiae
Commercial Law League of
America

DATED: November 9, 2020.

